      Department of Homeland Security



      FEMA Improperly Applied the 50 Percent Rule in Its 

       Decision To Pay the Alaska Department of Natural 

           Resources To Replace a Damaged Bridge 





DS-13-06                                            April 2013

                              on-ICE OF INSPf.CTOR GESERA L
                                     Dcp<lrtmt:Tlt of HMncland Security


                                               APR          5 20\3

MEMORAN DUM FOR:                      Kenneth Murph.,.

                                      ;~~:;:'.~~~;~';:;;;;:; ,~x Agency
FROM :

                                     Office of Emerge ncy Management OIIe rslght

SUBJECT:                             FEMA Improperly Applied the 50 Percent Rule: in Its
                                     Dedsion To Pay the: Alaska Deportment 0/ Nolurnl
                                     Resourcts To Rep/oce:" Dumaged Bridge
                                     FEMA D,slIster Numbe r 1669-DR·AI(
                                     Audit Report Number 05-13·06

We ~udited Public Ass istance (PAl gr~ nt funds awarded to Alaska Departme nt of Natural
Reso urces, Anchorage, Alaska (Departme nt). Publi c Assistance Id e ntifi cation Number
QOO·U0421..()O. Our audit obje ctive was to determi ne whether th e Departme nt
accounted for and e~pen d ed Federal Emergency Management Agency (FENtA) gra nt funds
according to Federal regulationS and FEMA guidelines.

The Alaska Division of Hom e land 5e<:urity and Eme rge ncy Management (ADHSE M), a
FEMA grant ee, awarded t he Departme nt $1.273,176, prima ri ly re lated to damages
result ing from ~e~e re sto rm s, floodin g. muds lides, a nd rocks lid es durin g the period from
October 8 throu gh 13, 2006. The award provide d 75 percent FEMA fundi ng for four
large proj~ls and one sma ll project.' Our audit cove red the period from Octob er 8,
2006, to Jilnuary 9, 2013. We audited four of th e five projeds with ,harge~ totaling
$958,288. A5 01 January 2013, the Depanment had not submitted a final oosts daim for
one large project (see uhibit J.

We co nducted this performance audit betwe en July 10, 2012, and January 9, 2013,
pursuant to Ih e Inspector Generol Act of 19 78, as ame nded, and at~ordlng to gene rall.,.
accepted governm ent a ud iting standards. Tho ~e st andards require that we plan and
perform th e audit to obtain suffiCient, app rOpr iate evidence to pro~ldll II reasonab le
basis for our findings and cond usio ns based upon our audit obj ective. We bel ieve Ihat
th e evidence obtained provides a reasonable basis for our find ings ') nd conclusions
based upon o ur audi t objective. We conducted this audit applying the statutes,
regulations, and FEMA policies a nd guidelines in e ffect at t he time of the disaste r.

. f "';u.1("Rul.Jtionsln Hfeet at the tim<'   ~I   the   di~5t~   set tM   I.r~ . ~ojoo<l   thr er.hllid II SS9.700.
                        OFFICE OF INSPECTOR GENERAL 

                               Department of Homeland Security 



   We interviewed FEMA, ADHSEM, and Department officials; reviewed judgmentally
   selected project costs (generally based on dollar value); and performed other
   procedures considered necessary to accomplish our objective. We did not assess the
   adequacy of the Department’s internal controls applicable to grant activities because it
   was not necessary to accomplish our audit objective. However, we did gain an
   understanding of the Department’s methods of accounting for disaster-related costs
   and its procurement policies and procedures.


                                       RESULTS OF AUDIT

   Of the $958,288 in project charges we reviewed, the Department generally managed
   FEMA’s PA grant funds according to Federal regulations and FEMA guidelines. However,
   FEMA incorrectly applied the 50 Percent Rule to determine whether to repair or replace
   a damaged bridge, and reimbursed the Department $398,186 in ineligible costs.

   Erroneous Repair versus Replacement Decision

   FEMA officials incorrectly applied the 50 Percent Rule when deciding to replace the
   Liberty Falls Bridge. As a result, FEMA reimbursed the Department $398,186 in
   ineligible replacement costs under Project 118.

   Federal requirements (under the Code of Federal Regulations [CFR]) and FEMA
   guidelines pertaining to the 50 Percent Rule stipulate the following:

       •	 A facility is considered repairable when the disaster damages do not exceed
          50 percent of the cost of replacing the facility to its pre-disaster condition, and it
          is feasible to repair the facility so that it can perform the function for which it
          was being used as well as it did immediately prior to the disaster. If a damaged
          facility is not repairable, approved restorative work may include replacement of
          the facility. (44 CFR 206.226(f)(1)-(2)).

       •	 FEMA DAP 9524.4 states that a facility is eligible for replacement when the
          repair cost exceeds 50 percent of the replacement cost. The comparison of
          repair costs with replacement costs results in a fraction that expresses repair as
          a percentage of replacement. The calculation shall not include soft cost such as
          design associated with upgrades, demolition, and site work (FEMA, Repair versus




www.oig.dhs.gov                                  2                                   	      DS-13-06
                           OFFICE OF INSPECTOR GENERAL 

                                    Department of Homeland Security 

            Replacement of a Facility (The 50 Percent Rule), FEMA DAP 9524.4 (1998),
            Section VII).2

       •	 In cases where repairs are deemed eligible, allowed cost shall include all the
          work necessary to return the facility to its pre-disaster condition utilizing modern
          materials and methods for the repairs. If replacement is deemed eligible,
          replacement of the facility shall be of the same size or designed capacity and
          function, built to all applicable codes (FEMA, The 50 Percent Rule: The Eligibility
          of a Facility for Replacement, FEMA Guidance No. 4511.61 E (1995)).

   FEMA officials did not properly apply these Federal criteria and incorrectly arrived at its
   50 Percent Rule decision. In calculating the repair versus replacement percentage for
   the bridge, FEMA used total estimated repair costs of $211,939 and total estimated
   replacement costs of $414,059. Thus, the estimated repair and replacement costs
   produced a 51 percent ($211,939/$414,059) ratio, and FEMA authorized replacing the
   bridge rather than repairing it.

   FEMA’s calculation, however, included costs not allowed under the 50 Percent Rule—
   specifically costs for design, demolition, and site work. If FEMA had properly applied the
   50 Percent Rule and excluded unallowable cost elements from the calculation, the ratio
   reaches only 31 percent. Based on that ratio, FEMA should have authorized repairing
   the bridge, not replacing it (see the following table). Because FEMA incorrectly
   calculated the ratio, the Department replaced the Liberty Falls Bridge that ultimately
   cost $610,125.




   2
    Various Federal policies and publications clarify 44 CFR 206.226(f)(1). These include FEMA 322 Public
   Assistance Guide (June 2007), p. 36; Public Assistance Policy Digest (January 2008), p. 113; and Disaster
   Assistance Policy DAP9524.4 (September 24, 1998). FEMA updated DAP9524.4 on March 25, 2009.


www.oig.dhs.gov                                         3	                                                DS-13-06

                       OFFICE OF INSPECTOR GENERAL 

                              Department of Homeland Security 

                          Table. The 50 Percent Rule Comparisons 





   FEMA agreed to research the issue and noted that its decision to replace the bridge was
   not based solely on the 50 Percent Rule and that there were other mitigating
   circumstances. FEMA, however, did not provide documented evidence to support this
   assertion. Department officials noted that FEMA had completed the 50 Percent Rule
   calculations and did not comment on the issue.

   Because using the allowable estimated repair and replacement costs does not exceed
   the 50 percent threshold, FEMA should have only authorized repairing the bridge at an
   estimated cost of $211,939. Therefore, we question $398,186 as ineligible replacement
   costs. We calculated the $398,186 in questioned cost as the difference between the
   $610,125 it cost to replace the bridge and the $211,939 in estimated costs to repair the
   bridge.


                                    RECOMMENDATION

   We recommend that the FEMA Region X Administrator:

       Recommendation: Disallow $398,186 (FEMA share $298,640) in ineligible
       replacement costs charged to Project 118.




www.oig.dhs.gov                               4                                        DS-13-06

                       OFFICE OF INSPECTOR GENERAL 

                              Department of Homeland Security 

                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP 


   We discussed the results of our audit with Department officials during our audit, and
   included their comments in this report, as appropriate. We also provided a draft report
   to FEMA on January 8, 2013, and to ADHSEM and Department officials on February 8,
   2013. We discussed the draft report at an exit conference held with FEMA officials on
   January 9, 2013, and they generally agreed with our finding and recommendation.
   ADHSEM and Department officials did not request an exit conference.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for the recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendation. The recommendation will
   be considered open and unresolved until we receive and evaluate your response.
   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are Humberto Melara, Western Regional Office Director;
   Louis Ochoa, Audit Manager; Connie Tan, Auditor-in-Charge; and Paul Sibal, Auditor.

   Please call me with any questions, or your staff may contact Humberto Melara, Western
   Region Audit Director at (510) 637-1463.




www.oig.dhs.gov                               5                                        DS-13-06

                              OFFICE OF INSPECTOR GENERAL 

                                      Department of Homeland Security 

                                                                                                       EXHIBIT

                                     Schedule of Projects Audited 

                                  October 8, 2006, to January 9, 2013 

                          Alaska Department of Natural Resources, Anchorage 

                                  FEMA Disaster Number 1669-DR-AK 


                                                                                  Costs Questioned
                                                                                     (Erroneous
                                          Project                Project            Replacement
               Project       Categories   Award                 Chargers            versus Repair
               Number         of Work1   Amount                 Reviewed              Decision)
                  77             G         $82,380                  $82,380
                  782            G         314,888
                 118              C        610,125                   610,125                $398,186
                 120             G         213,768                   213,768
                 122             A          52,015                    52,015
                Total                   $1,273,176                  $958,288                $398,186
          1
              Categories of Work: A – Debris Removal, C – Roads and Bridges, G – Parks, Recreational, and Other.
          2
              As of the end of audit fieldwork, the Department did not have costs records available for our audit.
              As a result, we limited our review for Project 78 primarily to evaluating the project’s eligibility.




www.oig.dhs.gov                                           6                                                 DS-13-06

                        OFFICE OF INSPECTOR GENERAL 

                               Department of Homeland Security 

                                                                            APPENDIX


                                     Report Distribution
                              FEMA Disaster Number 1669-DR-AK

   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Acting Chief Privacy Officer
   Audit Liaison, DHS

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison (Job Code G-12-038)
   Director, Recovery Division, Region X
   Deputy Director, Recovery Division, Region X
   Audit Liaison, Region X
   Audit Follow-up Coordinator

   Grantee (Alaska Division of Homeland Security and Emergency Management)

   Director
   Deputy Director
   Disaster Assistance Branch Chief

   State (Alaska)

   Alaska State Auditor, Division of Legislative Audit

   Subgrantee (Alaska Department of Natural Resources, Anchorage, Alaska)

   Project Engineer
   Administrative Officer



www.oig.dhs.gov                                 7                                DS-13-06

                      OFFICE OF INSPECTOR GENERAL 

                            Department of Homeland Security 

   Congressional Oversight and Appropriations Committees, as appropriate, including:

   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner




www.oig.dhs.gov                             8                                      DS-13-06

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
